                           Office of the Inspector General
                   Corporation for National and Community Service




                            Pre-Audit Survey Report of the
                                 Idaho Commission
                        for National and Community Service


                           OIG Audit Report Number 00-28
                                 January 7,2000




                                         Prepared by:
                                   Urbach Kahn & Werlin, PC
                                   1030 Fifteenth Street, N.W.
                                    Washington, D.C. 20005

                               Under CNS 01G MOU # 98-046-5003
                                  With the Department of Labor
                                     Contract # J-9-G-8-0024
                                     Task Order B9G9X103



This report was issued to Corporation management on July 7,2000. Under the laws and
regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than January 3, 2001,
and complete its corrective actions by July 7,2001. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
